                            CLOSEOUT FOR M-94040011


F--                                                                       - -
a letter that containedallegations of misconduct in science to OIG's attention. She informedus
                                           a faculty member-ta                    (institution A)
                                             her role as a panel member for the NSF program,


The complainant alleged that some ideas inthe subj&ts3 NSF proposal plagia&ed ideas from
a meeting of members of a regional consortium. It was at this meeting that representatives from
institution A discussed their future proposal to be submitted to the consortium, which also
funded selected activities by its member institutions. In addition, the complainant alleged that
the subjects misrepresented information in their NSF proposal when they indicated that
institutions A and B planned to collaborate on the work supported by the subjects' NSF award
and present the information at a future conference at institution B. She stated that the future
conference was to be held at institution A and that she could find no documentation that
supported institution A's willingness to collaborate on their NSF supported work. Finally, the
complainant was concerned that the subjects' previous work with a prior NSF award had been
too focused on institution B and that this was contrary to the other institutional consortium
members' expectations. OIG determined that the focus of a study was best determined by the
investigators, and its results are best evaluated by the scientific community. The focus of that
study, as such, is not an issue of misconduct in science.

         With regard to the allegations of intellectual theft and misrepresentation, OIG reviewed
the subjects' NSF proposal, the complainant's letter, and information provided by the program
director. OIG contacted the complainant for additional information, including a copy of
institution B's proposal to the consortium.

       OIG learned from the complainant that the consortium meeting was held specifically to
develop ideas for the future direction of the consortium. One of the five subjects was in




                                          Page 1 of 2                                   M94- 11
                            CLOSEOUT FOR M-94040011

attendance as institution B's representative. At this meeting institution A's members presented
their ideas for the future proposal to the consortium. The complainant indicated in a subsequent
discussion with OIG that there was no expectation of confidentiality with respect to ideas
discussed at this meeting and ideas were openly shared.

       OIG asked the complainant to provide examples of work done by institution A that
allegedly appeared in the subjects' NSF proposal. She provided no examples for OIG to
evaluate. When questioned further with respect to possible examples of intellectual theft, the
complainant contradicted her letter to the program director and said that she was not concerned
about the use of ideas from the consortium meeting-such ideas were openly shared.

        OIG determined that there was no substance to the allegation of. intellectual theft. The
complainant provided no evidence to support her allegation and OIG could find no evidence to
indicate any ideas had been improperly used by the subjects in their NSF proposal.

        The complainant focused her concerns on the fact that she could find no documentary
evidence that a collaborative relationship existed between institutions A and B, a relationship
discussed in the subjects' NSF proposal. She conjectured that the subjects had probably assumed
that their proposed NSF work would be a part of the collaborative relationship that already
existed between the consortium colleges, and more specifically, between institutions A and B.

          OIG determined that the subjects' NSF proposal merely stated that the conference was
jointly sponsored and that the NSF PIS expected to discuss the results of their work at the
conference. There was no commitment that this conference had to take place at institution A.

       OIG concluded that there was no substance to the allegation that the subjects had
misrepresented a collaborative relationship between institutions A and B in their NSF proposal.

       This case was closed.

cc:    Staff Scientist, Deputy AIG-Oversight, AIG-Oversight, IG




                                         Page 2 of 2
